<html>
<title> - REDUCING REGULATORY BURDENS, ENSURING THE FLOW OF COMMERCE, AND PROTECTING JOBS: A COMMONSENSE APPROACH TO BALLAST WATER REGULATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                 REDUCING REGULATORY BURDENS, ENSURING
                  THE FLOW OF COMMERCE, AND PROTECTING
                    JOBS: A COMMONSENSE APPROACH TO
                        BALLAST WATER REGULATION

=======================================================================

                                (112-45)

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                AND THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
67-384                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)

  
?

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

  
?

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                  (iv)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY
                               Panel One

Carlton, James T., Ph.D., Chair, Committee on Assessing Numeric 
  Limits for Living Organisms in Ballast Water, National Research 
  Council........................................................    10
Hanlon, James A., Director, Office of Wastewater Management, 
  Environmental Protection Agency................................    10
Salerno, Vice Admiral Brian, Deputy Commandant for Operations, 
  United States Coast Guard......................................    10
Swackhamer, Deborah L., Ph.D., Chair, EPA Science Advisory Board.    10

                               Panel Two

Allegretti, Thomas A., President and CEO, The American Waterways 
  Operators, on behalf of the Shipping Industry Ballast Water 
  Coalition......................................................    30
Jewell, Michael, President, Marine Engineers' Beneficial 
  Association....................................................    30

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    41

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Allegretti, Thomas A.............................................    44
Carlton, James T., Ph.D..........................................    53
Hanlon, James A..................................................    56
Jewell, Michael..................................................    65
Salerno, Vice Admiral Brian......................................    74
Swackhamer, Deborah L., Ph.D.....................................    77

                       SUBMISSIONS FOR THE RECORD

Chart entitled, ``Ballast Water & Incidental Discharge Regulation 
  under the Clean Water Act,'' referred to by Hon. Frank A. 
  LoBiondo, a Representative in Congress from the State of New 
  Jersey.........................................................     2
Letter signed by 25 organizations expressing their opinions and 
  concerns with introducing ballast water legislation, referred 
  to by Hon. Timothy H. Bishop, a Representative in Congress from 
  the State of New York..........................................     8
United States Coast Guard:

  Response to question from Hon. Rick Larsen, a Representative in 
    Congress from the State of Washington, regarding the 
    technologies that the Coast Guard Shipboard Technology 
    Evaluation Program is evaluating.............................    20
  Response to question from Hon. Timothy H. Bishop, a 
    Representative in Congress from the State of New York, asking 
    if the implementation of the vessel general permit has had a 
    significant adverse impact on the flow of maritime commerce 
    thus far.....................................................    23

                        ADDITIONS TO THE RECORD

California State Lands Commission, Curtis L. Fossum, Executive 
  Officer, letter, July 25, 2011.................................    86
Passenger Vessel Association, Captain Jay W. Spence, President, 
  written testimony..............................................    90
Washington Department of Fish and Wildlife, written testimony, 
  July 20, 2011..................................................    94

[GRAPHIC] [TIFF OMITTED] T7384.001

[GRAPHIC] [TIFF OMITTED] T7384.002

[GRAPHIC] [TIFF OMITTED] T7384.003

[GRAPHIC] [TIFF OMITTED] T7384.004

[GRAPHIC] [TIFF OMITTED] T7384.005

[GRAPHIC] [TIFF OMITTED] T7384.006

[GRAPHIC] [TIFF OMITTED] T7384.007

[GRAPHIC] [TIFF OMITTED] T7384.008



                      REDUCING REGULATORY BURDENS,
                     ENSURING THE FLOW OF COMMERCE,
                   AND PROTECTING JOBS: A COMMONSENSE
                  APPROACH TO BALLAST WATER REGULATION

                              ----------                              


                        WEDNESDAY, JULY 13, 2011

        House of Representatives, Subcommittee on Coast 
            Guard and Maritime Transportation, Joint with 
            the Subcommittee on Water Resources and 
            Environment, Committee on Transportation and 
            Infrastructure,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Frank LoBiondo 
(chairman of the Subcommittee on Coast Guard and Maritime 
Transportation) presiding.
    Mr. LoBiondo. Good morning. Subcommittee hearing will come 
to order.
    The joint subcommittees are meeting today to review the 
confusing, contradictory, and unsustainable approach to the 
regulation of ballast water and other incidental discharges 
from vessels that currently exist and explore options to 
simplify and improve it.
    I think we can all agree on the importance of reflectively 
regulating ballast water discharges. Invasive species have 
threatened ecosystems and the industries that rely on those 
ecosystems across the country.
    However, the current system of regulation is killing jobs 
and impeding the flow of commerce, which is vital at any time 
but especially now for our economic recovery.
    Currently the Coast Guard and the EPA have developed 
separate regulations under two different Federal laws to govern 
the discharge of ballast water. The EPA's ballast water program 
under the Clean Water Act is especially burdensome and 
troublesome as it allows each individual State to add 
requirements on top of the Federal regulations; 29 States and 
tribes have done just that.
    And as you can see in the chart on the screens, which we do 
have up, the result is differing ballast water or incidental 
discharge standards for the vast majority of these States and 
tribal areas.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7384.009
    
    Mr. LoBiondo. While this provision of the Clean Water Act 
functions well for factories that are fixed in one location, it 
simply does not work for vessels engaged in interstate commerce 
or international commerce. It is unreasonable to ask a vessel 
operator to comply with two Federal standards and as many as 29 
different State and tribal standards, several of which are not 
even achievable.
    Let's take an example: The State of New York, what are they 
doing? New York is in the process of implementing standards for 
ballast water discharge that are 1,000 times stricter than the 
upcoming IMO requirements. As the Science Advisory Board will 
point out today, a standard 1,000 times IMO is simply not 
achievable and not verifiable. So what are we look--so what we 
are looking at is New York State dictating to the whole 
industry what they have to meet, and that is an impossible 
standard. And if they fail to meet that standard, they then 
face a daily fine of over $32,000. That is $32,000 a day to 
meet something that is impossible to meet.
    For entering the Saint Lawrence Seaway or the Port of New 
York and New Jersey. And this is absurd and ridiculous and 
cannot be allowed to stand.
    The problem is not just limited to ballast water. Other 
discharges, such as bilge water, gray water, deck wash, and 
even the condensation from air conditioners, is now being 
regulated by the EPA and the States in a confusing and 
contradictory manner. The current system threatens our 
international maritime trade. It is driving industry away from 
coastwise trade. It is undermining our attempts to revitalize 
the U.S.-flagged fleet, and simply it is killing jobs. It is 
hurting our economy.
    I hope our witnesses will address these concerns and offer 
ideas on how they can more efficiently and uniformly regulate 
these discharges.
    Additionally, I look forward to hearing from our witnesses 
representing the scientific community, specifically I am 
interested in their views on what the standards should be and 
the availability of technology to meet that standard. In other 
words, is it workable in the real world?
    My understanding is that both the Science Advisory Board 
and the National Research Council reports indicate that moving 
forward with the IMO standard is appropriate at this time. If 
this is the case, I think we will finally have a clear 
nonpartisan reason to endorse that standard as a baseline. I 
hope to hear more on your research so that we can use the 
specific finding to inform much needed and much delayed 
legislative action.
    We have to overcome this mind set that mandating a dozen 
different unachievable standards, each more stringent than the 
next, somehow protects our environment. It does not. The time 
has finally come to enact a clear, effective and uniform 
national standard that utilizes available and cost-effective 
technology to reduce the risk of future aquatic invasions. We 
cannot afford to delay any longer, as ballast water continues 
to threaten our environment and our economy.
    I would like to thank Chairman Gibbs of the Water Resources 
Subcommittee for agreeing to co-chair this hearing today.
    And I want to thank the witnesses for taking your time to 
appear here today.
    At this part of the hearing, we will have a large number of 
witnesses that we want to hear from. We will ask that opening 
statements be limited to the chairs and ranking members. Other 
Members are welcome to submit their statements for the record 
or use their time during questions to make their statements.
    With that, I would like to yield to Mr. Larsen for his 
opening statement.
    Mr. Larsen. Thank you, Mr. Chairman.
    Today, we review current information and new 
recommendations related to the discharge of ballast water and 
other pollutants from ships. I hope that following today's 
hearing, we can develop bipartisan legislation to address these 
discharges.
    Mr. Chairman, the title of today's hearing encompasses 
three concepts: reducing regulatory burdens, ensuring the flow 
of commerce, and protecting jobs. While I support all three, I 
believe we can do more.
    Reducing regulatory burdens, while advisable in many 
instances, cannot be a goal in and of itself. As we have 
learned from previous experience in the Deepwater Horizon 
disaster, the Wall Street meltdown, and the sub-prime mortgage 
crisis, when we have regulations in place that can actually 
protect lives, property, and the environment, we can actually 
get a better result.
    We should focus on smart regulations that accomplish 
national goals, grow the economy, and protect the public health 
and the environment.
    I also want to do more than just ensure the flow of 
commerce and protect jobs. I want to be sure that we are 
expanding the flow of commerce and increasing the number of 
jobs. At our subcommittee hearing on June 14, we heard of 
opportunities to grow our economy by enhancing our marine 
transportation system.
    Mr. Chairman, I look forward to working with you and all 
interested members of the committee to implement the 
investments in people and property presented to the 
subcommittee on that day.
    When the district court in California made its decision in 
March of 2005 that discharge from vessels could not be exempt 
from regulation from the Clean Water Act permitting 
requirements, both EPA and this committee began the process of 
determining how to comply with that court's decision and 
whether changes to the law were necessary. Congress responded 
with two bipartisan pieces of legislation, and the EPA 
responded with a general permit.
    For small recreational vehicles, Congress developed and 
enacted the bipartisan Clean Boating Act of 2008. The law 
exempted recreational boats from permitting requirements, but 
in return for that exemption, the law tasked EPA and the Coast 
Guard with developing best management practices to protect 
water quality. The result will be improvements in water quality 
without the need for permitting individual boats, an example of 
a smarter bipartisan legislative response.
    A second bipartisan response that we have had in the past 
to clean water issues, Mr. Chairman, is that Congress developed 
legislation that provides a moratorium from permitting 
requirements for nonballast water discharges from fishing 
vessels and smaller nonrecreational vessels until December 
2013. This moratorium is to allow EPA, Congress and the boating 
community more time to analyze the impacts of discharges from 
vessels and develop the appropriate legislative or regulatory 
response.
    EPA's response to the court's decision is a vessel general 
permit for those vessels and discharges not covered by the 
legislation. That permit expires December 2013, and the general 
permit contains a requirement that apply to large commercial 
vessels, including discharges of ballast water.
    At this point, EPA has done about as much as it can with 
the law and the court's decision, and any additional action 
concerning the Clean Water Act will be up to this committee and 
Congress.
    I bring these up, Mr. Chairman, because this committee 
should continue its bipartisan approach and develop legislation 
that resolves the uncertainty surrounding discharges of ballast 
water and other discharges from vessels. The goals of the 
legislation should be to help the EPA and the Coast Guard, 
ensure that water quality is protected and to allow vessels to 
operate safely and cost effectively.
    For example, on issues of safety and cost effectiveness, I 
have heard from representatives of the tug and barge industry 
in my district raising issues about what we should consider. 
They asked that we carefully consider the impacts of differing 
State laws or requirements on navigation as we consider a 
legislative approach to ballast or other discharges.
    The issues we need to consider are well-known and include: 
Will discharges from vessels be addressed under the Clean Water 
Act, some other law, or some combination of laws? What 
standards will be set for pollutants and species and 
discharges? Will the discharge standards be uniform across the 
country? What will the role of the States be in addressing 
vessel discharges? How might we address different types of 
vessels?
    While there is not yet a consensus on the resolution of 
these issues, I believe that one is available. Given the 
opportunity, the Coast Guard Subcommittee and the Water 
Resources Subcommittee can work together in a bipartisan way to 
develop legislation that effectively addresses discharges from 
ships and boats.
    So I look forward to today's witnesses, Mr. Chairman, and 
to hear how they seek to help us address this critical water 
quality issue.
    Mr. LoBiondo. Thank you, Mr. Larsen.
    We will now turn to Chairman Gibbs of the Water Resources 
Subcommittee.
    Mr. Gibbs. It is my pleasure to join Chairman LoBiondo and 
the Coast Guard Committee to hear testimony on the ballast 
water discharge regulations today. A necessity to maintain 
stability during water board transit, ballast water has also 
will been recognized as one of the ways invasive species are 
transported globally.
    Lawsuits filed by environmental groups and the subsequent 
March 2006 court decision require the Environmental Protection 
Agency to regulate and issue point-source discharge permits 
under the National Pollution Discharge Elimination System, 
NPDES.
    Pursuant to a court order, the EPA established a vessel 
general permit. Vessel operators that did not file a notice of 
intent to comply with a vessel general permit can be found in 
violation of the Clean Water Act, a criminal and civil offense. 
In addition to the Coast Guard and EPA standards, the discharge 
of ballast water is managed by an assortment of international, 
State, territorial, and tribal regulations. As a result, our 
Nation's vessel owners and operators must ensure that they are 
in compliance with a burdensome patchwork of regulations. 
Changes in ballast water regulation loom on the horizon.
    An international standard has been ratified in 28 nations 
and could become the first international method for controlling 
invasive species in ballast water. Current EPA regulation is 
set to expire December 2013. Both the Coast Guard and the EPA 
have proposed new methodologies of regulation. States have also 
proposed new and, in some cases, unrealistically stringent 
standards.
    As new regulations are considered the Coast Guard and EPA 
have asked for scientific studies that would provide them with 
a better understanding of ballast water management. The studies 
found that inflexible regulation has not necessarily provided 
more effective control of invasive species. Also, technology 
hasn't caught up with the regulations. We simply do not have 
the technology to uphold some of the proposed standards.
    As we consider ballast water standards, we should not 
burden our shippers with unattainable, unrealistic, expensive 
regulations that have not demonstrated a significant 
environmental benefit. Instead, we need a commonsense approach 
that can be enacted quickly, protects the environment, reduces 
red tape, grows maritime jobs and opens the flow of maritime 
commerce.
    Thank you, Mr. Chairman, and I look forward to the hearing 
and look forward to the witnesses.
    Mr. LoBiondo. Thank you, Mr. Gibbs.
    Now we will turn to Ranking Member Mr. Bishop for a 
statement. Thank you.
    Mr. Bishop. Thank you, Mr. Chairman.
    Thank you to both of the chairmen for holding this hearing.
    The spread of invasive species as a result of ballast water 
discharges has significant impacts. While the Long Island 
sound, which borders my district on its northern edge, has 
fortunately not had significant problems, there are many areas 
of the country where invasive species introduced through 
ballast water are wreaking havoc on ecosystems and economies.
    Consider the Great Lakes. Zebra mussels clog water intake 
pipes, impede recreational activities by accumulating on boats, 
docks, and buoys and have a wide range of impacts on the Great 
Lakes' native species. The States and Federal Government have 
spent two decades trying to control zebra mussels at an 
estimated cost of $500 million per year.
    The San Francisco Bay Area, where oceangoing ships from 
around the globe come into port, has the dubious distinction of 
being the most invaded aquatic ecosystem on earth. The economic 
and environmental costs associated with invasive species are 
mind boggling, as green crabs originally from the Black Sea 
feast on native shellfish and Chinese mutant crabs weaken the 
levee system when it burrows into the banks. Thousands of other 
species also cost the State hundreds of millions of dollars a 
year in lost revenues and mitigation expenses.
    In short, controlling invasive species after they have been 
introduced through ballast water discharges is often difficult, 
if not impossible, and extremely costly. So while it is easy to 
categorize ballast water discharge rules as yet another 
regulatory burden, as the title of this hearing implies, the 
facts are much more complex.
    It is true that there are costs associated with ballast 
water controls, but the costs of doing nothing are much 
greater. It makes sense that we should implement discharge 
standards that are technologically feasible, but we should not 
become complacent with existing technology. We should encourage 
and support the development of new technologies that will 
reduce costs while providing greater benefits in terms of 
ballast water treatment. That is good for business. It is good 
for jobs, and it is good for the environment. It is a win-win-
win.
    Finally, while I certainly understand the argument for a 
consistent national discharge standard for ballast water given 
the interstate nature of maritime commerce, I hope we will all 
find it ironic that some would be arguing over the need to 
preempt States at the very time when this committee just 
reported H.R. 2018, the Clean Water Cooperative federalism Act, 
that would turn implementation of virtually the entire Clean 
Water Act over to the States. One has to wonder how divergent 
the discharge standards for ballast water would become if that 
bill were to ever take on the force of law.
    In closing, I thank the chairman again for holding this 
hearing. I look forward to hearing from our witnesses on this 
important subject. Before I yield back, Mr. Chairman, I ask 
unanimous consent to enter into the record a letter from 25 
environmental organizations in which they state their views on 
this issue.
    Mr. LoBiondo. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7384.010
    
    [GRAPHIC] [TIFF OMITTED] T7384.011
    
    Mr. Bishop. Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Thank you, Mr. Bishop.
    We have two distinguished panels today. For Members who may 
have come in a little bit past the opening gavel, we are going 
to ask you to withhold your opening statements. If you choose 
to make an opening statement, you will be able to do it during 
your time for questioning as we try to move forward.
    Our first distinguished panel includes Coast Guard Vice 
Admiral Brian Salerno, Deputy Commandant for Operations; Mr. 
James Hanlon, director of the EPA's Office of Wastewater 
Management; Dr. Deborah Swackhamer, chair of the EPA Science 
Advisory Board; and Dr. James Carlton, chair of the Committee 
on Numeric Limits for Living Organisms in Ballast Water of the 
National Research Council.
    We won't try to say that three times fast, but I thank our 
witnesses for being here today.
    Admiral, you are up.

TESTIMONY OF VICE ADMIRAL BRIAN SALERNO, DEPUTY COMMANDANT FOR 
    OPERATIONS, UNITED STATES COAST GUARD; JAMES A. HANLON, 
   DIRECTOR, OFFICE OF WASTEWATER MANAGEMENT, ENVIRONMENTAL 
  PROTECTION AGENCY; DEBORAH L. SWACKHAMER, PH.D., CHAIR, EPA 
  SCIENCE ADVISORY BOARD; AND JAMES T. CARLTON, PH.D., CHAIR, 
 COMMITTEE ON ASSESSING NUMERIC LIMITS FOR LIVING ORGANISMS IN 
            BALLAST WATER, NATIONAL RESEARCH COUNCIL

    Admiral Salerno. Good morning, Mr. Chairman.
    Chairman LoBiondo, Chairman Gibbs, Ranking Member Larsen, 
Ranking Member Bishop, and distinguished members of the 
subcommittees, I am very happy to be here this morning to have 
this opportunity toinform both committees about the Coast 
Guard's actions to strengthen ballast water management 
regulations.
    Coast Guard has been involved in reducing the risk of 
invasive species from ballast water since the early 1990s, and 
since that time, we have worked in close collaboration with 
other Federal agencies, the States, the affected industry and 
the international community to develop standards which are 
rigorous enough to protect our environment and which can be 
practically adhered to by those who must operate within these 
standards.
    The Coast Guard has established its existing ballast water 
regulations and its proposed new regulations under the 
authority of the National Invasive Species Act, NISA. In so 
doing, we have worked very closely with the Environmental 
Protection Agency, which has a similar mandate under the Clean 
Water Act.
    NISA and Clean Water Act represent two different legal 
frameworks, each focussed on achieving similar outcomes related 
to invasive species. The Coast Guard and EPA are committed to 
harmonizing, to the degree possible, the requirements of both 
legal regimes in the proposed ballast water rulemaking and to 
further expand the excellent level of cooperation and field 
enforcement already established under EPA's vessel general 
permit.
    The proposed ballast water discharge standards, which we 
published in 2009, represent a significant improvement in the 
level of protection from invasive species. Currently, the risk 
of invasion is reduced through mandatory exchange of ballast 
water in mid ocean. However, this practice varies in 
effectiveness based upon ship design and route.
    In contrast, the proposed rule will shift to a standard 
whereby the concentration of organisms in a known quantity of 
ballast water will be specifically limited. In determining the 
concentration limits, we relied heavily on inputs from the 
scientific community, from industry and equipment 
manufacturers, and from policymakers at the Federal and State 
levels.
    We also led the U.S. Delegation to the International 
Maritime Organization, IMO, joining the negotiations and the 
ultimate adoption of the International Convention on the 
Management of Ships' Ballast Water and Sediment. Although this 
convention has not yet entered into force internationally and 
has yet to undergo ratification by Congress, it has 
nevertheless provided a useful benchmark in our proposed 
rulemaking.
    Our proposed rule follows a two-phased approach. Phase one 
would establish a standard similar to that adopted by IMO. This 
is consistent with the level of technology currently available, 
and it represents a significant improvement over the current 
practice of mid ocean exchange. To put the IMO or phase one 
standard into some context, the standard of ten 50-micron-sized 
organisms in a cubic meter of ballast water is on the order of 
1 part per trillion. This is analogous to 1 second in 31,700 
years.
    As these ratios suggest, we are talking for the most part 
about relatively small numbers of microscopic organisms. This 
phase one standard is the most protective standard that can be 
practicably implemented at that time.
    Phase two is based on the most stringent quantitative 
discharge limits proposed in U.S. State regulations and 
essentially provides a target to encourage the development of 
significantly more effective ballast water management systems. 
Since neither NISA nor the Clean Water Act preempt State 
requirements, it remains very important in this process to 
develop a standard that will satisfy the States and thereby 
provide a consistent target for industry compliance.
    The rulemaking will also contain provisions for Coast Guard 
type approval of systems used to treat ballast water for 
discharge. The Coast Guard has relied heavily on scientific 
input, and in that regard, we would like to thank the EPA's 
Science Advisory Board and the National Research Council's 
Water Science and Technology Board for their essential efforts 
to inform the way ahead on this issue.
    We believe that the proposed two-phased approach will 
significantly reduce the risk of invasive species and will 
ensure the environmental protection is increased as science and 
technology allow.
    Thank you, Mr. Chairman, and I look forward to answering 
any questions you may have.
    Mr. LoBiondo. Admiral, thank you very much.
    Mr. Hanlon, you are now recognized.
    Mr. Hanlon. Good morning, Chairman Gibbs, Chairman 
LoBiondo, Ranking Members Bishop and Larsen, and members of the 
subcommittee.
    Thank you for the opportunity to discuss EPA's regulation 
of ballast water discharges from vessels under the Clean Water 
Act. My testimony will provide an update.
    Mr. LoBiondo. Mr. Hanlon, excuse me, could you just pull 
the microphone a little closer to you?
    Mr. Hanlon. My testimony will provide an update on our 
current activities with respect to regulating ballast water 
under the vessel general permit, including the role of the 
recent National Academy of Sciences and EPA's Science Advisory 
Board reports will play in the development of the ballast water 
provisions for the next iteration of the permit.
    Aquatic nuisance species introductions contribute to the 
loss of aquatic biodiversity and have associated significant 
social, economic, and biological impacts. Economic loss from 
invasions of aquatic nuisance species are estimated to be over 
$1 billion annually. In particular, the Coast Guard and EPA, 
operating under different statutory authorities, have worked to 
develop a strong Federal ballast water management program, 
which will reduce the risk of new introductions.
    In administering our respective authorities, the Coast 
Guard and EPA have worked closely to harmonize as appropriate 
the proposed Coast Guard ballast water discharge standard 
regulations and EPA's vessel general permit. I want to 
recognize at this time that the Coast Guard has been a trusted 
and valuable partner in our ballast water activities, and we 
would not have accomplished this significant progress to date 
without their expertise and cooperation.
    The vessel general permit issued by EPA in December of 2008 
regulates approximately 69,000 domestic and foreign vessels 
while in U.S. waters. In the development of the vessel permit, 
EPA found that it was infeasible to calculate numeric limits 
for ballast water discharges. Therefore, the current permit 
contains best management practices that permittees must employ, 
such as all of the Coast Guard's ballast water and saltwater 
flushing standards and offers increased environmental 
protection with several additional management practices, such 
as requiring U.S.-bound vessels with empty ballast water tanks 
to conduct saltwater flushing, and mandating ballast water 
exchange for vessels engaged in certain Pacific near-shore 
voyages.
    The current vessel permit expires in December of 2013. EPA 
plans on proposing for public comment a draft of the next 
permit in November of this year and expects to finalize the 
permit in November of 2012 so that vessel owners and operators 
will have time to plan for and implement any new permit 
conditions.
    In order to further our scientific understanding of the 
state of ballast water science and technology, EPA and the 
Coast Guard commissioned a report from the National Academy of 
Sciences to inform our understanding of the relationship 
between the concentration of living organisms in ballast water 
and the likelihood of nonindigenous organisms successfully 
establishing populations in U.S. waters.
    EPA and the Coast Guard also sought advice from EPA's 
Science Advisory Board on the performance and availability of 
ballast water treatment technologies. EPA's primary purpose in 
requesting the National Academy and the Science Advisory Board 
reports was to receive expert input and advice regarding the 
derivation of numeric limits for ballast water and the status 
and availability of ballast water treatment technologies.
    The National Academy report identified the strengths and 
weaknesses of existing approaches in evaluating the risks from 
ballast water discharges and made recommendations on how to 
improve our future scientific understanding of this risk. The 
report also recommended that a benchmark discharge standard 
should be established that reduces concentrations of organisms 
below current levels resulting from ballast water exchange.
    EPA will use the results of this study to inform 
development of the next vessel permit. Furthermore, EPA will 
also work with our Federal partners to implement the 
recommendations of the report for improving our understanding 
of the risk posed by ballast water in the future.
    The Science Advisory Board in their draft report found that 
treatment systems currently exist to meet the International 
Maritime Organization standard. EPA will also use the results 
of the SAB study to inform our next vessel permit. EPA and the 
Coast Guard will continue to work closely to minimize the risk 
of the introduction and spread of aquatic nuisance species. 
This cooperative EPA-Coast Guard effort, augmented with other 
Federal expertise provides substantial opportunities for moving 
forward with enhanced communication, coordination of Federal 
activities, and engagement with external stakeholders to 
develop and implement an effective national ballast water 
management program.
    Once again, Chairman Gibbs and LoBiondo and members of both 
subcommittees, thank you for the opportunity to discuss EPA's 
ballast water-related activities, and I look forward to 
answering any questions.
    Mr. LoBiondo. Well, thank you very much.
    Now Dr. Swackhamer, you are now recognized.
    Ms. Swackhamer. Thank you.
    Good morning, Chairman LoBiondo and Chairman Gibbs, Ranking 
Members Mr. Larsen and Mr. Bishop, and members of the 
subcommittee.
    My name is Deborah Swackhamer, and I serve as chair of 
EPA's Science Advisory Board. I am a professor at the 
University of Minnesota and codirector of the university's 
Water Resources Center.
    I am here today on behalf of the Science Advisory Board to 
present testimony on our review of the background and issue 
paper prepared by the U.S. EPA and U.S. Coast Guard staff. This 
review was conducted by the SAB Ballast Water Advisory Panel, 
whose members had expertise across a wide array of relevant 
disciplines. The SAB reviewed and accepted the advisory panel 
report.
    EPA's Office of Water asked the SAB for advice on the 
effectiveness of existing technologies for shipboard treatment 
of vessel ballast water. The SAB reviewed data on 51 existing 
ballast water management systems provided by EPA. Detailed data 
were available, however, for only 15 ballast water management 
systems. These data were mostly from the time period of 2008 to 
2010, and it should be kept in mind that this dynamic industry 
continues to evolve. EPA asked the SAB to address four charge 
questions, and I will summarize our responses.
    The first question asked about the ability of existing 
shipboard ballast water management systems to meet proposed 
discharge standards. Only 9 of the 15 systems had reliable 
data, and they consisted of 5 different treatment types. The 
SAB concluded that these five treatment types of existing 
ballast water management systems could meet what is known as 
the phase one standard proposed by the U.S. Coast Guard. Also, 
the SAB concluded that none of the existing ballast water 
management systems can meet a standard that is 100 or 1,000 
times more stringent than the phase one standard. It may be 
possible in the near future for the five system types 
identified to meet a standard that is 10 times more stringent 
than phase one if both treatment performance and testing 
approaches improve. The SAB also found that the available data 
indicate that none of these systems will meet a no-living-
organism standard.
    The second question asked what types of systems, based on 
their engineering design, would be likely to meet different 
discharge standards? The SAB concluded that all of the current 
ballast water management systems are based on reasonable 
engineering designs and use adaptations of standard water 
treatment processes. However, significant difficulties are 
encountered in adapting standard water treatment technologies 
to shipboard operation, and there were insufficient data to 
determine whether particular types of systems could meet 
standards more stringent than phase one. The SAB noted that 
factors beyond biological efficacy need to be considered as 
these technologies improve and mature.
    The third question asked about ways in which ballast water 
management system performance could be improved. The SAB 
concluded that reasonable changes in existing systems are 
likely to result in incremental improvements but are not likely 
to lead to 100 or 1,000 times further reduction in organism 
concentration. It is likely that entirely new systems will need 
to be developed.
    The fourth question asked about limitations of existing 
studies and how the limitations could be overcome in future 
ballast water management system assessments. The SAB recommends 
using improved and consistent testing protocols for verifying 
discharge concentrations and exploring the use of surrogate 
test organisms and performance measures. The SAB suggests using 
a practical step-wise approach to compliance, reporting, 
inspections, and monitoring. Also, developing standards to 
limit organisms that are less than 10 microns in diameter is 
essential to protect against certain harmful algae.
    Finally, the SAB's overall recommendation is that EPA adopt 
a systems- and risk-based approach to minimize the impacts of 
invasive species, rather than relying solely on numeric 
standards in ballast water discharge. The SAB found that 
insufficient attention has been given to integrative sets of 
practices that could used to systemically advance ballast water 
management. These practices include, one, managing ballast 
uptake to reduce the presence of invasive species; two, 
reducing invasive risk through changes in ship operation and 
design to reduce or eliminate the need for ballast water; 
three, development of voyager-based risk or hazard assessment; 
and four, consider treatment of ballast water in onshore 
reception facilities.
    The SAB refers to an example used in the food industry, 
known as Hazard Analysis and Critical Control Points, or HACCP. 
HACCP identifies specific steps in the process where hazards 
can be addressed, rather than focusing only on the end result. 
In the context of ballast water management, this would mean 
identifying critical points throughout the process where 
invasive species could be controlled in developing monitoring 
and control systems for these critical points.
    You will find much more detail in our report to the EPA 
Administrator and my written testimony. Thank you for your 
interest and attention, and I will be happy to provide answers 
to any questions you may have. Thank you.
    Mr. LoBiondo. Thank you, Doctor.
    Now, Dr. Carlton, you are now recognized.
    Mr. Carlton. Good morning, Chairman LoBiondo, Chairman 
Gibbs, Ranking Members Mr. Bishop and Mr. Larsen, and members 
of the subcommittees.
    My name is James T. Carlton. I am a professor of marine 
sciences at Williams College, and I served as chair of the 
Committee on Assessing Numeric Limits for Living Organisms in 
Ballast Water of the National Research Council, the arm of the 
National Academy of Sciences that operates to advise the 
Government on matters of science and technology.
    Our study, requested by the EPA and the U.S. Coast Guard, 
was to advise these agencies as they develop plans to regulate 
the concentration of living organisms discharged from ballast 
water. These plans assume that there is a quantitative 
relationship between invasive species concentrations in the 
released ballast and the probability of their successful 
establishment.
    Here are our five key conclusions: First, the methods for 
determining an exact numeric standard for ballast water 
discharge are limited by profound lack of data by which to 
develop and validate the necessary models that relate organism 
release to the probability of invasion.
    Second, while the number of released organisms is 
important, it is only one of many variables that determine 
when, why, and where species will invade. Any method that 
attempts to predict invasions based on only one factor is 
likely to suffer from a high level of uncertainty.
    Third, that said, there is evidence that significantly 
reducing the number of released organisms reduces invasion 
probability. Therefore, a benchmark discharge standard that 
reduces the concentration of organisms below the levels 
achieved by open sea ballast water exchange is an important 
first step.
    Fourth, we urge the development of robust statistical 
models, experimental studies, and field investigations that are 
focused on the relationship between the quantity, quality and 
frequency of released organisms and invasion risk. This 
research could be focused on the types of species that have the 
highest probability of being good invaders and are likely to 
pose the greatest threats to our economy and health.
    This focus on the best case for invasion scenarios sets the 
regulatory bar high, noting that by best case for invasions, we 
mean of course the worst case for our society.
    And fifth, our databases on what invasive species are now 
becoming established in American waters and our knowledge of 
the details of many vectors that bring these species to the 
United States, including ballast water, vessel fouling, the 
aquarium industry, and the live seafood and bait trades are 
patchy and substantially mismatched. For example, we have 
anecdotal accounts that there are now fewer invasions since 
extensive open ocean ballast water exchange has been in place 
for ships arriving from foreign shores. On the other hand, 
there is no--no--national survey program to determine if in 
fact invasions have decreased.
    Let me conclude on a personal note, as a marine biologist 
and as a scientist who has worked on invasive species for 49 
years. I have had the privilege to testify before Congress nine 
times since 1990 and my message is the same as it was 20 years 
ago. Our oceans are under great pressure. Our natural resources 
and our economic health derived from our rich maritime assets 
and heritage are under great pressure. Our fundamental goal has 
been and remains to limit invasions of exotic species in order 
to protect and preserve our existing populations of fish, 
wildlife, shell fish and the many other beneficial uses of our 
Nation's waters.
    Given the sobering reality of the uncertainty of our 
knowledge about what regulates and promotes nonnative species, 
our ability to make accurate predictions is severely 
limited,underscoring more than ever that only the strongest 
science behind the policy will ensure the outcomes we seek.
    Thank you for the opportunity to testify. I welcome any 
questions.
    Mr. LoBiondo. Thank you, Doctor, very much.
    I want to start, Admiral Salerno, with you. What will the 
Coast Guard do if the practicality review you plan to conduct 
to ensure a verifiable system is available to meet phase two 
standard comes back negative? Will you implement the best 
available technology, even if such technology is only 
marginally more effective than phase one? And my concern is if 
there is mandated technology that only gives us a little bit 
better edge, are we going to force vessel owners and operators 
to buy that technology and put it on board if there is only a 
minimal ability to increase their effectiveness?
    Admiral Salerno. Sir, we did include in our rulemaking a 
provision to have an interim standard, in other words, if it 
appears that technology has advanced to such a degree that you 
can have a significant improvement in protection but still not 
fully meet the phase two requirement, that there is a provision 
for an interim standard. So that is part of the framework of 
the regulation, yes, sir.
    Mr. LoBiondo. Where would be the definition of significant 
improvement? Is it in the eye of the beholder or something that 
can be tangibly measured?
    Admiral Salerno. It would need to be tangibly measured. 
That is the framework for this, is that we need to have the 
technology in place to measure the number of organisms in a 
specific quantity of ballast water. So, without the ability to 
measure, there is not that tangible proof of an improvement. So 
only in the case of technology that that can achieve a 
significant improvement would we seek to impose an additional 
rule.
    Mr. LoBiondo. Also, for you, Admiral, the EPA and the Coast 
Guard signed a memorandum of understanding in March of this 
year to outline Coast Guard enforcement of EPA vessel general 
permits. Is the Coast Guard checking to see if vessel operators 
are following these vessel general permits best management 
practices for incidental discharges, other than ballast water, 
such as gray water? For instance, if you board, are you 
checking to ensure that vessels are carrying only phosphate-
free soap? Is that something you are doing?
    Admiral Salerno. Typically, sir, we are boarding vessels in 
the course of our normal duties, and we are including 
verification of compliance as part of our routine boardings. 
Essentially it is checking records, making sure that they have 
the proper procedures laid out to be followed by the crew and 
look for apparent compliance. I don't believe we are checking 
soap.
    Mr. LoBiondo. OK. And Mr. Hanlon, will the draft VGP 
include regulation of commercial fishing vessels and other 
commercial vessels less than 79 feet, which are currently 
subject to a moratorium?
    Mr. Hanlon. Mr. Chairman, our current plans are, given the 
earlier conversation this morning and the recognition that the 
moratorium expires in December of 2013 is to prepare a permit 
that would be available to the moratorium vessels, those under 
79 feet and all fishing vessels, so that if the moratorium does 
expire in December of 2013, there would be a permit available 
for that class of vessels to be able to apply for the permit.
    In the alternative, if we did not include them in the 
permit and the moratorium were to expire, then that whole class 
of vessels would be vulnerable under the Clean Water Act for 
discharging without a permit.
    Mr. LoBiondo. Do you have any idea how many vessels would 
come under that?
    Mr. Hanlon. Approximately 120,000 to 140,000.
    Mr. LoBiondo. And does the EPA have the resources to 
administer to these additions.
    Mr. Hanlon. Yes, sir.
    Mr. LoBiondo. OK.
    Also, Mr. Hanlon, the science to establish a foundation for 
regulation and incidental discharges other than ballast water 
is seriously lacking. Does the EPA fully understand that the 
impact of these discharges, that they have on water quality--
so, I mean, do you know what it is doing to water quality? Can 
you measure that?
    Mr. Hanlon. As we have discussed this morning, the 2008 
vessel general permit was EPA's first permit dealing with this 
class of dischargers. Clean water permits under the Clean Water 
Act had a term of 5 years. It is an iterative process, and so 
as I outlined in my statement, we are in the process, and we 
gathered information. That is why we, along with the Coast 
Guard, commissioned the National Academy report, why we 
commissioned the work done by the Science Advisory Board, to 
better inform us in terms of where the science is at, where the 
release risk paradigm is at, as Dr. Carlton spoke to; where the 
technologies are at, as Dr. Swackhamer spoke to; to inform the 
EPA decisionmaking process as we work to propose the next 
vessel general permit in December--in November of this year. 
And so that understanding is being developed with--across this 
category of dischargers and will be reflected in the proposed 
permit.
    Mr. LoBiondo. Well, correct me if I am wrong, is that not 
just for ballast water?
    Mr. Hanlon. No, basically EPA's vessel general permit that 
we issued in December of 2008 includes the consideration of 26 
different waste streams from vessels, including ballast water, 
and that scope will be continued in the proposed permit in 
November.
    Mr. LoBiondo. But have you studied these other discharges, 
such as air conditioner condensation or deck wash-off, the way 
you have studied ballast water to determine the impact?
    Mr. Hanlon. As part of the bill or law that included the 
moratorium, the Congress directed EPA to do a study of vessel 
discharges. We did that study and delivered it to Congress. 
Again, it was based on a limited study, not a comprehensive 
study of all vessel classes and all dischargers, and that 
report identified across a number of waste streams where there 
are potential concerns, not globally, not nationally, but in 
specific locations where there are discharges from vessels that 
could have adverse water quality impacts.
    Mr. LoBiondo. OK. Well, I will end with that for you, but I 
just have to say that I have a very, very serious concern that 
air conditioner condensation or deck wash-off that could result 
in serious fines, that we don't fully know the impact that 
these are having and that it is a little bit different than 
ballast water. And I hope, as we move along, that we can get a 
better handle on that.
    Dr. Swackhamer, what are the major challenges in adopting 
standards more stringent than the IMO standard?
    Ms. Swackhamer. I would say the major challenges, Mr. 
Chair, are with the technologies themselves. We can probably, 
by improving detection limits of the verification methods and 
by tweaking some of the technologies that are currently being 
developed, we could meet the standard, those systems could meet 
a standard that is 10 times more stringent than the phase one. 
However, it is unlikely that the current systems, even with 
tweaking, would get to 100 or 1,000 times more restrictive than 
the phase one standard.
    Mr. LoBiondo. OK thank you.
    Dr. Carlton, and this is my last question in this round, in 
your report you find that available methods for determining a 
numeric standard for ballast water discharge are limited by a 
profound lack of data to develop and validate models 
determining risks of invasion. Why, given your finding that 
available methods of determining a numeric standard for ballast 
water discharge are limited by a profound lack of data, do you 
feel the IMO standards should be implemented?
    Mr. Carlton. Thank you, Mr. Chairman.
    What we suggest in the report is that we now seek a 
benchmark discharge standard that is lower than what can be 
achieved by current ballast water exchange, which is limited 
and often very patchy. What we identify in the report was that 
was a different kind of discharge standard and what we 
suggested was that something like the IMO D-2 standard--such as 
the IMO D-2 standard--would be a direction to go in, but we did 
demure from specifically saying that that particular standard 
should be implemented because of our concern with being able to 
identify a specific number, based upon all the models we 
discussed in the report, but we did go in that direction of 
saying that a standard that would achieve concentrations lower 
than that--than what is achieved by ballast water exchange, 
such as the IMO D-2 as an example, would be a direction to go 
in.
    Mr. LoBiondo. OK. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you.
    Dr. Carlton, continuing on that point, again, while your 
report doesn't endorse a specific standard, it sure seems to 
point in a direction, the IMO D-2 or Coast Guard phase one 
standard, at least in the direction of it. If that standard is 
put in place, did you--in regulation or legislation--does the 
NRC consider at all whether that should be a uniform standard 
or a baseline for States to build on, and if it didn't, do you 
have your own personal opinion?
    Mr. Carlton. We did not go in that direction. We did not 
address the question as to whether it should be a national or 
how it would work at State or international levels. It was more 
of a broad approach to where we should go to get beyond ballast 
water exchange. And my personal opinion is that a uniform 
standard would certainly the wise direction to go in terms of 
what the industry could respond to.
    Mr. Larsen. Could you explain why, in your opinion?
    Mr. Carlton. Yes. Certainly, and again, this is my personal 
opinion; the committee did not address this. That various 
vessels that are arriving at different ports, different port 
facilities, various COTP regions would be faced with 
potentially a wide variety of different regulatory frameworks, 
which would make putting on-board or other kinds of ballast 
water management systems a tremendous challenge. I look at that 
internationally as well. These vessels are visiting many 
different countries, and certainly something that would achieve 
a strong global standard would be the way to go, in my opinion.
    Mr. Larsen. Dr. Swackhamer, regarding the standards and 
technology, for many years, this debate has included the 
question of whether standards should be set at the level of 
available technology or whether standards should be set and 
then basically give the incentive for the private sector to 
move technology to the standard. Based on the results of your 
review, it appears the establishment of the IMO standard caused 
the private sector to develop technologies designed to meet the 
standard. Do you believe the five technologies that you 
identified would have been developed in the absence of this 
standard?
    Ms. Swackhamer. Mr. Larsen, it is hard for me to second-
guess what the industry would do, but I would agree with your 
statement that once they have a regulatory goal or guidance, 
they then can--that spurs innovation to develop the 
technologies to meet those goals.
    Mr. Larsen. Would strengthening standards in the future 
result in further improvements in technology?
    Ms. Swackhamer. I am sorry could you repeat that.
    Mr. Larsen. Would strengthening standards in the future 
result in improvements in technology?
    Ms. Swackhamer. Mr. Larsen, I do believe that that would be 
the case, that once you set another standard, you begin to show 
where the road map is going to go, it does spur the innovation 
to develop those technologies.
    Mr. Larsen. Admiral Salerno, the Coast Guard Shipboard 
Technology Evaluation Program is currently evaluating four 
different technologies on six vessels. The SAB identified five 
technologies that can meet the phase one IMO D-2 standard. Are 
any of these the same technologies?
    Admiral Salerno. I believe they are, sir. There are also 
some additional applications that are currently being reviewed, 
and some of these are fleet-wide applications, so an 
additional--actually, a total of 60 vessels that have applied 
for entry into the step program, which provides that platform 
to test new technologies. So I can get back to you for the 
record, but I believe all of the available technologies would 
be represented in these additional step applicants.
    [The information follows:]

        The Science Advisory Board report identified five 
        different categories or general types of Ballast Water 
        Management System (BWMS) technologies that are able to 
        definitively meet the D-2 (and hence the U.S. Coast 
        Guard Phase I) standard. These five general categories 
        are:

            (1) Deoxygenation + Cavitation
            (2) Filtration + Chlorine Dioxide (Cl 
            O<INF>2</INF>)
            (3) Filtration + Ultra-violet light (UV)
            (4) Filtration + UV + Titanium Oxide 
            (TiO<INF>2</INF>)
            (5) Filtration + Electro-chlorination

        Vessels that are enrolled in or that have applied for 
        enrollment in the Coast Guard's Shipboard Technology 
        Evaluation Program employ all categories of BWMS 
        technologies except ``Filtration + UV + Titanium 
        Oxide.'' There are no pending applications which have 
        identified this technology as their treatment method.

    Mr. Larsen. A question I have with regard--is the 
relationship here between the vessel general permit and the 
science and the research that is being done because I think--
and Dr. Carlton, your fourth point is about urging the 
development of robust statistical models, studies, further 
investigations and so on. Do you have an idea, a concept of the 
timing of the kind of research that we need to get done to get 
to the, you know, highest probability of killing the bad guys, 
killing the critters?
    Mr. Carlton. Mr. Larsen, in terms of timetable of the 
research agenda, that kind of thing?
    Mr. Larsen. Yeah.
    Mr. Carlton. We suggest in the report that there was low-
hanging fruit that was available within 3 to 5 years if some of 
these programs could be instituted, complementary programs that 
would be both experimental and field in nature. Basically, what 
our committee found again and again was that when we turned to 
looking for research data that would support the basic 
constructs, the basic parameters and models of where we were 
going, it just wasn't there. We felt that there were some 
programs that could be designed if they were to be implemented 
where we could get very useful data in fairly short term.
    Mr. Larsen. Mr. Chairman, I think I will hold there and, 
perhaps on the second round, come back.
    Mr. LoBiondo. OK, thank you, Mr. Larsen.
    Mr. Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman.
    I want to explore a little bit invasion prevention with Dr. 
Carlton in just a second, but start with Admiral Salerno.
    You mentioned, currently, technology is there I think you 
said 10--I will call them critters--per 1 cubic meter of water 
was that equal to 1 parts per trillion, correct?
    Admiral Salerno. There are different size categories of the 
critters, sir, and what I referenced was the largest size, 
which is 50 microns, which is essentially the size of a human 
cell, and that the standard, the phase one standard is 10 
organisms or less in a cubic meter.
    Mr. Gibbs. And that would be the equivalent to parts per 
trillion?
    Admiral Salerno. Yes.
    Mr. Gibbs. So that would be the phase one, that would be 
similar to the IMO standard that 28 nations have ratified?
    Admiral Salerno. That is correct.
    Mr. Gibbs. OK. I guess, to Dr. Carlton, then, your 
testimony about invasion prevention, I guess what I am hearing, 
the science isn't there to determine, even at parts per 
trillion, if that is a threshold that is great enough for, the 
zebra mussels in the Great Lakes to be able to adapt and 
multiply--is that correct? We just don't know what the number 
should be, or it has to be zero?
    Mr. Carlton. Right. At those kinds of numbers, where we 
have something like 10 or less organisms at 50 micrometers (50 
microns) per cubic meter, that is well within the size range of 
quite a number of different organisms. The tiny larvae of a 
number of invertebrates, the cysts of organisms that cause red 
tides are all within that 50-micron and smaller range. When we 
multiply that times the cubic meters that are in a ship, the 
volume, so that number actually goes up substantially. So, 
within that range, we understand that there is still an 
inoculum available, even at what seems like disappearingly 
small numbers. It is multiplied by the volume of water in that 
ship, how many hundreds of thousands of cubic meters, and then 
the number of ships that continue the arrive. That said, it is 
those kinds of numbers that we struggled with in terms of what 
minimum inoculum density is necessary to get an exotic species 
population going.
    Mr. Gibbs. So, knowing all this and knowing we don't have 
technology to go further, are you supportive of the United 
States ratifying the IMO and before when this permit expires, I 
think in a year or two? Would you support that, or something 
else?
    Mr. Carlton. As my personal opinion--again, the committee 
didn't address this--I would certainly support going in the 
strong directions that move us beyond ballast water exchange. 
Ballast water exchange has very large gaps in the management 
system for coast-wide trade. A number of vessels are exempt 
from it. We know that vessels in the foreign trade in fact 
cannot achieve ballast water exchange at times or not 
efficiently, and so we know that we need to move beyond that. 
And so I am supportive of both a global and national program 
that ratchets this down considerably and gets us beyond what 
was widely considered to be a stopgap measure for the past 20 
years.
    Ballast water exchange has always been a temporary measure, 
and what we need to do is get beyond that and get moving on to 
these programs, where combining what we can with ballast water 
management systems and however those are manifested reduces the 
concentration of those organisms considerably, and that we 
think will have a huge impact on invasion probability.
    Mr. Gibbs. Dr. Swackhamer, I guess I am intrigued with 
HACCP because I know a little something about that in the food 
supply line. Has that been more developed, or is there an 
actual proposal for critical points in how we could work to 
prevent the invasion of a species?
    Ms. Swackhamer. Mr. Gibbs, to my knowledge, it has not been 
developed specifically for invasive species, but the SAB feels 
that that particular HACCP approach, which has been in play for 
a long time and been quite successful at protecting the food 
supply, that that approach would be an ideal--it would 
translate ideally to the management of invasive species, from 
the taking of ballast water to its final discharge. So it would 
really be--instead of--it would include the numeric standard, 
but it would be managing ballast water from start to finish and 
finding those critical points in that process and then putting 
in place controls and monitoring to make sure that you are 
dealing with invasive species at each critical point in that 
line.
    Mr. Gibbs. I guess my last question is for Admiral Salerno. 
When I was back in the Ohio legislature, we had some committee 
hearings on ballast water exchanges and issues in the Great 
Lakes. Mechanically, ships are coming in and staying in the 
Saint Lawrence Seaway. They are required to exchange their 
ballast water 200 miles out or something like that. Most ships, 
can they exchange it, or do they flush through? Can you just 
explain briefly the mechanics of how all that works?
    Admiral Salerno. Yes, sir, the exchange is required to take 
place beyond 200 miles, which is our exclusive economic zone. 
It can, it is required to occur, but there are some provisions 
for allowing a ship not to do it. Mostly they are safety 
related; if, for example, if a ship is engaged in a storm, then 
it would be unsafe for the ship to shift ballast; there is an 
exemption there.
    The seaway also has a requirement for flushing. Coast Guard 
has a policy; the seaway has a requirement for flushing for 
empty ballast tanks, and that obviously also takes place out in 
mid ocean. And what we do is, in conjunction whether the seaway 
and Canadian authorities, is verify compliance at Massena, New 
York, so, essentially, in the seaway prior to entering the 
Lakes, and we are finding a high degree of compliance with 
those requirements.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Hanlon, the title of this hearing is, ``Reducing 
Regulatory Burdens, Ensuring the Flow of Commerce and 
Protecting Jobs,'' and I think it is fair to say that the 
implication of that title is that there is a view of some that 
ballast water treatment requirements and discharge standards 
constitute a regulatory burden that is impeding commerce. To 
your knowledge, has the implementation of the vessel general 
permit had a significant adverse impact on the flow of maritime 
commerce thus far?
    Mr. Hanlon. Chairman Bishop, thank you----
    Mr. Bishop. I can only hope.
    Mr. Hanlon. Or Ranking Member Bishop, thank you for your 
comment and question. The effective date of vessel general 
permit was February of 2009. We are going on 2\1/2\ years of 
implementation. To the best of my knowledge, there have been no 
interruptions of trade or commerce resulting from the permit.
    Mr. Bishop. Any other member of the panel wish to comment 
on that?
    Admiral Salerno, are you in a position to comment on that?
    Admiral Salerno. If I can take that one for the record, 
sir.
    [The information follows:]

        With regard to the ballast water requirements in 
        Section 2 of the Vessel General Permit (VGP), which 
        mirrors pre-existing ballast water requirements in the 
        pollution regulations in force before VGP came into 
        effect, there is no significant adverse impact to the 
        flow of maritime commerce. This is based on the exams 
        conducted by the Coast Guard since March 2011, where 
        only minor deficiencies have been identified and 
        provided to the Environmental Protection Agency (EPA) 
        for further action.

    Mr. Bishop. All right.
    Mr. Hanlon, the second question. One argument that is 
raised is that we have two different laws. We have the Clean 
Water Act and we have the National Invasive Species Act, and 
that the two are duplicative and that we don't really need 
regulation under the Clean Water Act with respect to this 
issue. Is that of a view that you share? And if so, why, and if 
not, why not?
    Mr. Hanlon. The last time I appeared before this committee 
on a hearing on this subject, I testified that the EPA view was 
that we did not need duplicative coverage. That was a view 
supported by the last administration. This administration has 
not taken a position in terms of the value of NISA and Clean 
Water Act coverage of ballast water.
    I believe that EPA, working very closely with the Coast 
Guard, has succeeded in implementing a system that has 
successfully made progress in the management of ballast water; 
in our case, implementing a commonsense workable permit.
    Mr. Bishop. But more specifically, do you believe that the 
application of the Clean Water Act provides protections beyond 
those that the National Invasive Species Act provides?
    Mr. Hanlon. Yes, I do.
    Mr. Bishop. Thank you, anyone else care to comment on this 
issue?
    Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Mr. Coble, Master Chief Coble.
    Mr. Coble. Thank you, Mr. Chairman. I appreciate that. I 
thank you for that elevation.
    Admiral Salerno, when will the Coast Guard release its 
final ballast water regs?
    Admiral Salerno. Sir, they are in clearance. Of course, 
they were published initially in 2009. We have received over 
2,000 comments largely from industry. Very carefully went 
through all of those. But the interim final rule is in 
clearance.
    We do feel a great sense of urgency to get these 
regulations published for the simple reason that we are seeking 
to harmonize with EPA, and EPA has a deadline to revise its 
vessel general permit. So when these regulations are published, 
that would be useful to EPA. And their deadline is really later 
this fall. So we are working very aggressively within the 
administration to meet that deadline.
    Mr. Coble. Thank you, sir.
    Will the Coast Guard regulations, Admiral, allow the use of 
shore-side systems, rather than shipboard systems?
    Admiral Salerno. Shore-side systems are a possibility, sir. 
But it brings with it a great number of complications. Similar 
to what we have for sludge or oily waste, every facility would 
have to have that capability for the system to work.
    So, currently, the proposed regulations are really 
shipboard-based so that every ship has its own system to deal 
with the limitation of invasive species.
    Mr. Coble. Thank you, sir.
    Mr. Hanlon, as you note in your testimony, EPA expects to 
release a draft vessel general permit, VGP, to replace the 
existing one by the end of the year. Has the EPA worked with 
the Coast Guard in developing its due discharge standards to 
prevent duplicity, and how can you ensure the uniformity if the 
VGP becomes subject to another lawsuit or further litigation?
    Mr. Hanlon. We continue to work closely with the Coast 
Guard in terms of the development of options that will be 
considered for the draft general permit to be released by the 
end of the year. Again, we develop permits, the vessel general 
permit in this case, under the authorities of the Clean Water 
Act implementing regulations, and that based on that, we make 
decisions, Administrator Jackson makes decisions based on final 
permits, final regulations. It is not uncommon we are 
challenged on those decisions like we were challenged on the 
2008 vessel permit. But as I mentioned a minute ago, we 
continue to implement that permit and have done so 
successfully.
    Mr. Coble. Thank you all for being with us.
    Mr. Chairman, I yield back.
    Mr. LoBiondo. Thank you, Master Chief.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Admiral Salerno and Mr. Hanlon, Dr. Dennis King with the 
University of Maryland Maritime Environmental Resource Center 
has written that based on planned IMO compliance deadlines, 
over 50,000 merchant ships will need to install certified BWT 
systems by 2016 to 2017. That is about 10,000 ships per year 
for 5 years or so.
    And since many larger ships may need to install multiple 
BWT units to meet IMO discharge standards, the number of actual 
BWT units that will need to be manufactured and installed 
during those years to achieve widespread compliance may be 
closer to 20,000 or 30,000 per year.
    Based on the Coast Guard's research, how many vessels would 
need to install ballast water treatment systems if the U.S. 
adopts the proposed ballast water standards?
    Admiral Salerno. Morning, Mr. Cummings.
    Mr. Cummings. Good morning. Good to see you again.
    Admiral Salerno. Good to see you, sir.
    Sir, let me talk about the international fleet first.
    Every year, the U.S. is visited by between 8,000 and 9,000 
individual ships. All of those vessels would need to comply 
with our standards. Internationally, of course, that number is 
much higher because the international fleet includes ships that 
don't necessarily visit the United States. So 40,000 to 50,000 
is probably in the accurate range.
    There is also a domestic fleet that would need to comply 
under the NPRM, and there the numbers are not as clear. Our 
proposed rulemaking estimated about 2,600. The feedback we 
received from industry suggests that number needs to be revised 
upwards significantly. I don't have an absolute number for you, 
but I would say it would be a several-fold increase in the 
number of domestic vessels that would need to comply with the 
proposed standard.
    Mr. Cummings. Now, Dr. Swackhamer, are existing companies 
capable of producing the number of treatment systems needed to 
meet the demand.
    Ms. Swackhamer. Our panel did not actually address that 
question so I don't know the answer to that question.
    Mr. Cummings. Is there anybody that can answer that 
question on the panel?
    Admiral Salerno. Sir, I can tell you that a lot of the 
feedback we received from industry suggests there is concern 
about the availability of equipment. So that is something that 
we are paying very close attention to.
    Mr. Cummings. All right.
    Admiral Salerno, a report that the EPA commission found 
that the systems currently exist to meet the International 
Maritime Organization's standards. Can you state how many such 
systems exist, and roughly speaking, how much does each system 
cost to install and maintain? Further, how large are such 
systems, and could they be easily accommodated in the existing 
vessels?
    Admiral Salerno. Sir, as far as the availability of 
systems, internationally, there are about seven other countries 
that have approved systems under the provisions of IMO, 
totaling about 11 individual system types. The Coast Guard has 
not yet approved any of those systems, but we are aware of them 
and would go through the approval process with those 
manufacturers.
    The cost to acquire and install, obviously, will vary 
depending on the ship type and service. For a large ocean-going 
ship, the cost of acquisition is probably somewhere at $1.8 
million. And then installation, you are probably $2.5 million 
on average. Less so for a domestic vessel. But you are still 
talking probably several hundred thousand.
    As far as size goes, again, that will vary, but for a large 
ocean-going ship, this is a significant bit of installation, 
roughly equivalent in volume to a large freight container. And 
that would require additional pumping and power requirements so 
that, in many cases, it will require the ship to have that 
installation done in a shipyard.
    For smaller vessels, obviously, the units would be smaller 
but still quite substantial. For example, a small coastal 
vessel, probably looking at several hundred thousand for 
installation and the unit, maybe the size of one or two home-
sized refrigerators.
    Mr. Cummings. With the chair's indulgence, I just want to 
ask one quick other question.
    I just want to--I am concerned. Before I close, I also want 
to take a moment and note that yesterday the National 
Transportation Safety Board issued its report on a 2009 
accident--are you familiar with that--in San Diego, in which a 
Coast Guard patrol boat collided with a recreational boat 
killing a young child. The NTSB identified excessive speed of 
the Coast Guard patrol boat as a cause of this accident. This 
report of course is very troubling to us. As the NTSB noted, it 
is the Coast Guard that is charged with ensuring the safety of 
our recreational boating activities and enforcing the rules of 
the road on our waterways. I hope that you all are acting on 
that because that is of great concern to us. It sets a very 
poor example, I think.
    And wouldn't you agree, if we have got our own folks who 
are supposed to be saving lives speeding down the waterways and 
leading to such a tragic incident? I wouldn't be making this 
comment if the NTSB had not already made its finding.
    Admiral Salerno. Sir, I can assure you we take that 
incident and anything like that incident extremely seriously. 
It did trigger very in depth internal investigation, and 
disciplinary action has been taken as well as policy measures 
that have been put in place to ensure that that type of 
situation does not occur again. But we take that extremely 
seriously.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Cummings.
    We will now recognize the gentleman from coastal Louisiana, 
Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman.
    Mr. Carlton, I can't help but sit here listening to all of 
this and think about being down on the coast and growing up and 
doing a lot of fishing and having a lot of social interaction 
with commercial fishermen.
    I could think of one old shrimper down in my district, Mr. 
Sharem. He is about 85 years old. He has got no formal 
education. And as you all were talking, and I think if he would 
be sitting here, he would probably look at me and say, ``You 
know, boy, just put a little more Clorox in the ballast, and we 
could solve the problem.''
    And it seems that is exactly what you were saying. You 
know, we could spend millions of dollars trying to come up with 
processes to filter the water, but it seems like if we just put 
a little more Clorox in the ballasts, we would do a lot more 
good and save a lot more money. Is that not what you were kind 
of alluding to?
    Mr. Carlton. It is an interesting question. I am going to 
pass this over to Dr. Swackhamer; her committee looked at all 
of these various technologies. But I do appreciate--I spend 
time at Grand Isle and Cocodrie and along the Louisiana coast. 
And I appreciate those senses of those who are living and 
working along the coastline as to the more pragmatic strategies 
that we should take.
    But in fact, chemical control, although it wasn't something 
our committee looked at, has been looked at for ballast water 
management and it has been considered to be a challenge, of 
course, as to chemically treating water. But let me pass that 
over to Dr. Swackhamer, whose committee looked at that 
question.
    Ms. Swackhamer. Mr. Landry, on a small scale, certainly 
using diluted bleach is a good way to clean your kitchen, but 
it is not a very good way to actually get at large volumes of 
ballast water. And the reason is the number of organisms and 
the number of particles in the water. So you have to go through 
multiple kinds of treatments to really, one, remove as many 
organisms as you can from some sort of physical filtration, and 
then you want to disinfect using----
    Mr. Landry. Would you say there is more ballast water than 
there are household sinks in this country?
    Ms. Swackhamer. No. It is a small-scale issue versus a 
large-scale.
    Mr. Landry. It is a small-scale issue if you look at it 
from a sink to a ballast, but if you go from a city to a ship, 
I think the amount that you are putting down the drain is 
probably more in the city than it would be in the ballast.
    But I guess my problem is we seem to not be taking 
pragmatic approaches and rather trying to look at something, 
which I think you all do a lot of, and that is to dream up what 
is the best case scenario to just filter the water to a point 
where even sometimes it seems like you are just going above and 
beyond what we need.
    And it strangles industry, and it kills jobs. And that is 
my concern whether it is Clorox or some other agent that we 
could use, it seems like you all could come up with something 
that is a lot cheaper.
    Before I run out of time, I wanted to ask the Admiral why 
is it--tell me what we could do to keep EPA from having to get 
involved in maritime vessels. I would rather keep enforcement 
of these issues strictly under the Coast Guard's supervision, 
just because I think that is where it belongs. And now we are 
paying for two agencies to basically do the same thing, and 
then we can't seem to come to an agreement.
    Admiral Salerno. Sir, the way we have approached that is in 
cooperation with EPA, we have actually signed a memorandum of 
understanding----
    Mr. Landry. I don't want you all to cooperate. I just want 
to give it to you.
    Admiral Salerno. I will leave that to Congress, sir.
    What we do is our people go out on the vessels. They are 
trained in what the EPA requirements are, and we act as 
detectors. We wrap that into our normal requirements.
    Mr. Landry. I wouldn't want to task the Coast Guard with 
making sure that we enforce household--you know, sewage 
treatment facilities land-based. And that is my point is, I 
don't want you all to be doing their job and them to do your 
job. And I think they would be better off where you are.
    But one quick before--I have got 20 seconds. Mr. Hanlon, 
you testified that approximately 69,000 domestic and foreign 
vessels, which are subject to the permit requirement while in 
U.S. waters. Do you know how many of these regulated vessels 
are owned by the U.S. Government?
    Mr. Hanlon. I don't have that information. We can certainly 
get back to you for the record on that.
    Mr. Landry. Are those Government vessels going to have to 
adhere to these same guidelines as the private vessels, or are 
we going to exempt DOD vessels?
    Mr. Hanlon. Under provisions of the Clean Water Act, 
military vessels are not subject to the 402 Clean Water Act 
permit. That is a separate rulemaking process under way for 
military vessels.
    Mr. Landry. So the Coast Guard vessels won't have to meet 
the same criteria as the private vessels, is that what you are 
saying?
    Mr. Hanlon. That is correct. But EPA vessels--basically, we 
have a very limited number of vessels--they have applied for 
and are complying with the permits.
    Mr. Landry. Would they have to?
    Mr. Hanlon. Yes, sir. Only military vessels.
    Mr. Landry. I yield back.
    Mr. LoBiondo. Ms. Herrera Beutler, do you have questions?
    Ms. Herrera Beutler. I mean, I have more questions for the 
second panel.
    But just maybe just to the group, what happens if Congress 
doesn't step in and do something? In terms of where we are at 
in the regulatory framework, what happens, and what would the 
cost be? That is really to the group.
    Mr. Hanlon. I think the path forward--well, as the Admiral 
testified, their regulation is in the final review process and 
will be issued. EPA will continue to coordinate and work with 
the Coast Guard staff in terms of their final regulation. The 
next generation of the vessel permit that is supposed to be 
proposed in November of this year and as we have with the past 
permit and Coast Guard regulations, we will continue to 
coordinate to ensure that there are sort of commonsense 
implementable solutions on the ground that ship owners and ship 
operators can comply with and will sort of know what the 
standards are so that there isn't any fuzziness in terms of 
what the requirements are at any point in time for any vessel 
on the water.
    Ms. Herrera Beutler. Those rules, both of them, they don't 
supersede State, any kind of State, the State framework at all. 
So if a State has additional--so it is what you are putting out 
in addition; correct?
    Mr. Hanlon. That is correct.
    Ms. Herrera Beutler. Thank you.
    Mr. LoBiondo. Mr. Gibbs indicated he had some additional 
questions.
    Mr. Gibbs. Thank you, Mr. Chairman.
    This is for Mr. Hanlon, kind of a follow up on my last 
round of questions. We were talking about the parts per 
trillion and the IMO standard. My understanding is New York and 
California are putting into place standards 100 to 1,000 times 
greater than the IMO standard. And do you have any idea how 
vessel operators could expect to comply with those standards?
    Mr. Hanlon. The conditions that New York, for example, has 
placed on the EPA 2008 vessel permit was under the authority of 
Section 401 of the Clean Water Act, where Congress said, for 
any Federal license or permit, a State can attach conditions 
relative to that license or permit complying with State water 
quality standards, so those are independent decisions that are 
made by States and are subject to challenges in courts. As Dr. 
Swackhamer testified, we are not aware of any technologies 
today why----
    Mr. Gibbs. My follow-up question to that is does the U.S. 
EPA have any mechanism to override any burdensome restrictions 
put on by States then?
    Mr. Hanlon. Under 401 certifications, we do not.
    Mr. Gibbs. So in the EPA's opinion, should the Federal 
Government have the primacy in determining ballast water 
regulations then? Would you agree with that?
    Mr. Hanlon. The vessel general permit was issued by EPA. 
That is our permit, yes, sir.
    Mr. Gibbs. Can vessel owners or operators face citizens' 
lawsuits for failure to comply with the 401 certifications?
    Mr. Hanlon. In as much as a 401 condition is a condition of 
the permit, the answer to that is yes.
    Mr. Gibbs. Would the EPA support a waiver of 401 
certifications for vessels engaged in interstate commerce?
    Mr. Hanlon. That is a question we would be happy to get 
back to you on the record.
    Mr. Gibbs. I am just trying to address some uniformity on 
the issue with regard to interstate commerce.
    Mr. Hanlon. We understand that. We also understand that in 
the 2008 permit and the 401 certifications, for some States, it 
had been 30 or more years before they had been in a position to 
issue a 401 certification on an EPA permit. And they had to do 
that in a relatively short period of time.
    Our plans are to give States a minimum of 6 months on the 
next permit to consider their certification requirements, if 
any, that may continue after a proposal of the next permit. And 
again, that permit will be informed by the work of both the 
National Academy and----
    Mr. Gibbs. Giving States more time wouldn't guarantee 
uniformity, though, under that permitting process, correct?
    Mr. Hanlon. I am sorry, I didn't hear----
    Mr. Gibbs. Giving States more time under this permitting 
process wouldn't guarantee uniformity, correct?
    Mr. Hanlon. Correct.
    Mr. Gibbs. OK, thank you.
    Mr. LoBiondo. Do any Members have additional questions for 
the first panel?
    Well, thank you very much for a helpful, very informative 
session.
    We are now going to move to our second panel, give a chance 
to switch out and announce who they are.
    Our second panel includes Mr. Thomas Allegretti, who is the 
president The American Waterways Operators, who is also 
representing the Shipping Industry Ballast Water Coalition; and 
Mr. Michael Jewell, who is president of the Marine Engineers' 
Beneficial Association.
    I would like to thank them for being here today, and in 
just a second, we will go forward with their testimony.

   TESTIMONY OF THOMAS A. ALLEGRETTI, PRESIDENT AND CEO, THE 
    AMERICAN WATERWAYS OPERATORS, ON BEHALF OF THE SHIPPING 
     INDUSTRY BALLAST WATER COALITION; AND MICHAEL JEWELL, 
      PRESIDENT, MARINE ENGINEERS' BENEFICIAL ASSOCIATION

    Mr. LoBiondo. Mr. Allegretti, whenever you are ready you 
are recognized.
    Mr. Allegretti. Good morning, Chairman LoBiondo.
    Today's hearing is aptly titled and most timely. Our Nation 
urgently needs the commonsense approach which your 
subcommittees are seeking.
    Without congressional action, the flow of critical maritime 
commerce will be constrained, American jobs will be 
jeopardized, regulatory burdens on business and workers will 
multiply, and American taxpayers will continue to foot the bill 
for duplicative and contradictory programs.
    The bipartisan leadership of these two subcommittees is 
crucial to ensure that our Nation avoids these unwarranted 
outcomes.
    The good news is that Congress has a huge opportunity to 
change the situation by enacting legislation that is good for 
U.S. business and American mariners, is good for the U.S. 
environment, and is good for the American economy and jobs.
    In my remarks to you this morning, I would like to address 
three fundamental issues: First, we must streamline existing 
regulations so they are clear to companies and mariners. The 
30,000 American mariners who live and work aboard the 4,000 
towing vessels in our industry are currently subject to the 
regulations of two Federal agencies and 26 States. These 
regulations have overlapping and conflicting requirements about 
how to use and discharge water on vessels that are operating in 
interstate commerce. The situation is confusing and unfair for 
hardworking Americans. And it is legally treacherous for law-
abiding companies.
    These mariners and companies are at risk of unwittingly 
committing a felony because of the patchwork of requirements 
that differ from one side of an invisible line in the water to 
another. Consider this: A tug and barge unit on a typical 
Northeast coastal voyage must traverse the waters of seven 
States to move petroleum from a refinery in New Jersey to a 
terminal in Maine. A typical inland barge tow will traverse the 
waters of 11 States moving cargo on the Ohio and Mississippi 
rivers from Pittsburgh to New Orleans. These vessels are 
required to comply with Federal standards established by both 
the EPA and the Coast Guard. The vessels must also comply with 
State and sometimes water-body specific conditions established 
by each of the States through which they are passing. Failure 
to comply with these rules is a crime.
    This simply is not the right way to regulate an interstate 
industry that is vital to the American economy. The lack of 
uniform Federal rules creates confusion that makes it more 
difficult for companies and mariners to comply with 
environmental regulations, and it puts hardworking Americans at 
risk of becoming felons. American companies, mariners and 
taxpayers deserve better and more streamlined standards from 
their Government.
    Second, we need to really protect the environment. The 
current regulatory situation actually undermines that 
objective. The absence of uniform national standards has 
encouraged a competition among States to establish the most 
stringent treatment standards on the books. Under the logic of 
this competition, if the international standard is good, a 
standard 100 or 1,000 times more stringent must be better.
    There are two big problems with this thinking. One, the 
technology to achieve those standards, or even the science to 
measure them, simply does not exist. And two, no responsible 
business can invest millions of dollars per vessel to install a 
ballast water treatment system that might be accepted in some 
States but not in others.
    The unfortunate result of the situation is that we have 
spent much of the last several years arguing about and 
litigating fantasy standards instead of implementing effective 
ones. That is as bad for the environment as it is bad for 
business.
    Third, we must protect American jobs. The economic stakes 
are very high. The barges and towing vessels in our industry 
safely and efficiently move more than 800 million tons of 
critical cargo each year. Our industry is mostly comprised of 
small businesses and the regulatory burdens of this broken 
system are complex to the point of crushing.
    Mr. Chairman, the problem is not that vessels discharges 
are regulated; it is how they are regulated. The current 
situation is untenable for the movement of American commerce. 
It is harmful to the high-quality jobs that our industry 
provides. It is an obstacle to the real protection of the 
marine environment.
    We respectfully urge the Subcommittees to take the lead in 
correcting a regulatory, environmental, and economic wrong by 
passing legislation that establishes a national framework for 
the regulation of vessel discharges.
    Thank you for your leadership in holding today's hearing 
and for providing us the opportunity to testimony.
    Mr. LoBiondo. Thank you, Mr. Allegretti.
    Mr. Jewell, you are recognized for your statement.
    Mr. Jewell. Good morning, Chairman LoBiondo, Gibbs and 
Ranking Members Larsen and Bishop. I am Mike Jewell, president 
of the MEBA. And I hold a U.S. Coast Guard chief engineer's 
license and am a captain in the U.S. Navy Reserve.
    On behalf of the Marine Engineers' Beneficial Association, 
the American Maritime Officers, the International Organization 
of Master Mates and Pilots, and Seafarers International Union, 
I thank you for the opportunity to testify and for your 
continued support of the U.S. Merchant Marine.
    Collectively, our maritime leader organizations represent 
men and women working aboard U.S.-flag commercial vessels 
operating our Nation's foreign commerce and domestic trades. 
The regulations that govern this fleet are very important. They 
have a large impact on its ability to compete for a larger 
share of America's foreign trade and the creation of vibrant 
coastwise shipping industry and maritime related jobs.
    There is a need for clear and consistent measures to 
address ballast water. The discharge of ballast water in U.S. 
could disrupt the environment if it contains invasive species. 
The U.S.-flag maritime community continues to work diligently 
to address the issue.
    As the subcommittee moves forward in their consideration of 
ballast water regulatory policies, we ask you to include the 
following factors: The uniformity by flag. In order for its 
intended effect to stay competitive in the world market, any 
ballast water regulation applied to the vessels operating in 
U.S. waters should apply to both U.S.- and foreign-flagged 
vessels.
    A comprehensive Federal standard. Under current law, 
individual States are able to implement their own regulations 
and establish State-specific permits. Unfortunately, the State 
permit development process does not always follow the Federal 
model of public comment and industry involvement. With 
constantly changing laws and regulations, it is difficult for 
vessel operators to formulate and conduct a sound business 
plan.
    The maritime industry will be well-served by a 
comprehensive Federal standard rather than individual 
legislation by the States.
    The consideration of lakers. Vessels operated exclusively 
on the Great Lakes require a unique consideration because of 
the particular environment in which they operate. First, 
Congress should question the need for any enhanced ballast 
regulations on those vessels that spend their entire life 
solely on the Great Lakes. Since the lakers do not leave the 
system, they will never introduce non-indigenous species into 
the Great Lakes.
    Second, most vessels operating on the Lakes rely on a 
higher level and speedier transfer of ballast water. Because of 
the uniquely rapid transfer, many of the ballast treatment 
systems proposed for their coastal and inland counterparts are 
not suitable for use on these vessels.
    Finally, there is no system today that satisfies the 
proposed regulatory changes. Because of this and the cost 
associated, the shipping industry on the Lakes would be put in 
jeopardy. Well-intentioned environmental policies could have 
unintended effect of pushing cargo to transportation means that 
are vastly less environmental friendly than shipping. Therefore 
when considering regulations on the Lakes, it is important to 
consider the unique region-specific factors and operating 
parameters
    The promotion of coastwise shipping. Congress and the 
administration have strongly supported the development of a 
vibrant coastwise shipping industry that can supplement and 
compliment the increasingly congested rail and roadways. This 
energy-efficient and economically friendly industry would 
create many new transportation jobs that would require little 
or no Federal funding. Like the lakers, these vessels will 
spend their entire life in the same waters. Therefore, the risk 
of introduction of invasive species to the coastal communities 
would be limited. To that end, Congress should consider 
coastwise shipping when drafting regulations that stay within 
U.S. waters.
    Safety. Foremost in the consideration for the ballast 
standards and the corresponding implementation deadline should 
be safety. Both the rate and volume of ballast transfers ensure 
ships remain stable. And should requirements be put in place, 
where improper technology exists, the ship's integrity and 
safety of its mariners are put at risk.
    In conclusion, the American policymakers have long 
recognized the best interest of the United States to maintain 
and support a strong U.S.-flag Merchant Marine industry, our 
men and women protect, strengthen and enhance our Nation's 
economic and military security.
    Promoting the water-borne shipment of goods would 
dramatically reduce the country's environmental footprint and 
create good jobs. Developing highly skilled middle class jobs 
in today's economic environment is invaluable. To best serve 
the economy surrounding the U.S.-flag industry, the United 
States should develop a safe, sound, economically feasible 
regulations that affect ballast water transfer.
    Working together we can achieve a high level of 
environmental standards as well as foster developments of new 
jobs.
    Thank you. I welcome your questions.
    Mr. LoBiondo. Thank you, Mr. Jewell.
    Mr. Allegretti, would you tell the committee from your 
perspective, what would the impact be if the 401 certifications 
in California and New York were enforced?
    Mr. Allegretti. It is difficult to contemplate what the 
effect is on real people when something like that happens. We 
are talking about real mariners who work aboard vessels. We are 
talking about companies that have been developed over the 
course of generations, family-owned companies. And the impacts 
of those kinds of enforcement are real.
    The situation we face with the State certification 
requirements, as I said in my remarks, is untenable.
    Mr. Chairman, you said it is unsustainable. I think that is 
absolutely correct. It is totally unsustainable.
    Today we live with a dysfunctional system that we comply 
with at great cost, with great difficulty and, at the end of 
the day, with great uncertainty about whether we are actually 
in compliance with the law.
    There is no way that over the long term, our industry can 
live with that kind of a system without impacting the folks who 
make their living aboard the vessels and the ability to move 
commerce in the interstate system.
    Mr. LoBiondo. So it would, from your perspective, have a 
dramatic and very negative impact on the ability to retain the 
level of jobs we have now, let alone hire more people?
    Mr. Allegretti. Absolutely. I mean, companies have to make 
decisions about future investments. Nobody can make rational 
judgments about investing millions of dollars in the capital 
equipment and in the training that goes into their workforce 
when they look down the road and see a system that is 
fundamentally dysfunctional.
    Mr. LoBiondo. Your opinion, how would you suggest we, the 
Congress, go about creating a uniform Federal framework for 
regulation of vessel discharges?
    Mr. Allegretti. Our coalition, the Shipping Industry 
Ballast Water Coalition, has spent a lot of time talking about 
that, consulting with folks on the Hill about the art of the 
possible and also looking at the legal paths forward to make 
sure that if and when Congress enacts remedial legislation, 
that it will not be subject to being overturned in the courts.
    And the best thinking that we can provide to the 
subcommittees is that the regulation of ballast water and 
vessel discharges in the future should be done under the 
framework of the Clean Water Act. That is the proper place for 
the regulation to take place. But it has to take place within a 
new subtitle of the law which provides for a national system of 
regulation, a national system of uniformity, and removes vessel 
discharges from the NPDES permit system that it is currently 
subject to as a result of the Circuit Court decision in 
California.
    So we would recommend that the Clean Water Act be amended 
to allow for a national framework. We would also recommend that 
the authorities for implementing that framework be jointly 
provided to the Coast Guard and to EPA. Which should take 
advantage of the natural strengths of those two agencies. EPA 
has enormous scientific expertise. The Coast Guard has enormous 
operational and Maritime expertise. And together, they can set 
effective national standards, and they can implement and 
enforce them.
    Mr. LoBiondo. Thank you.
    Mr. Jewell, we have had a lot of discussion over the last 
couple of years and I think pretty broad-based acceptance that 
we have to really focus on marine highways and implement a 
short seas shipping program. Your opinion, if we continue to 
move forward with dozens of State and Federal laws regulating 
ballast water and other incidental discharges, what impact will 
that have on our efforts to revitalize our marine highways and 
implement a short seas shipping program?
    Mr. Jewell. When you look at the short seas shipping, and 
if--you can overregulate it. And if you do overregulate it, you 
are not going to have people and companies willing to invest in 
the short seas shipping if you overregulate the ballast water 
concerns.
    You are in the EEZ zone of the United States, and these 
ships are going to be designed supposedly not to transfer 
outside the EEZ zone of the United States. Therefore, they are 
going to stay in the intercoastal waters of the United States. 
Very rarely will they probably go outside the 50 miles. And if 
you regulate them too much, you will not find owners coming in 
to want to build ships and invest in the marine highway system.
    Mr. LoBiondo. In your opinion, what issues should Congress 
consider when developing legislation to address these ballast 
water issues?
    Mr. Jewell. I look at it as a very simple thing. Less than 
a year ago, I was on a ship. We had to come into the United 
States, and we did have ballast water. And under a U.S.-flag 
ship, it is very simple; once we get inside the EEZ zone, we do 
not pump ballast out. And when we go to the dock, we do not 
pump ballast water out in the pier or in the bays. We just 
simply do not do that. One of the reasons we don't do that is 
you have fuel lines that run through ballast tanks. And what 
those ballast tanks--and you don't know the age of the ships, 
the United States fleet, it could contain oil. We simply do 
not--and I think it is very simple--is we don't deballast at 
the pier or dock or in the bays or estuaries. We just simply 
don't do that. It is a very simple rule.
    We exchange the five times out there in the middle of the 
ocean. Coming from Korea, we actually ballast in Korea to get 
the ship down to the water to make it safe to passage. Once we 
get the middle of the ocean, we actually do our five exchanges 
with good water. Then when we come into the United States, we 
do not deballast in the bays and estuaries. Simply put.
    Mr. LoBiondo. Thank you very much.
    Mr. Larsen.
    Mr. Larsen. Mr. Allegretti, is the issue facing your 
industry the two Federal agencies or the 26 States?
    Mr. Allegretti. It is the 26 States.
    Mr. Larsen. So from what I understood you to say in 
response to the chairman's question is that what you propose a 
separate subtitle under the Clean Water Act that would be 
specific to ballast water discharge, taking it out of the NPDES 
process and creating--well, I don't know if you could create a 
standard--but create a separate subtitle with regard to 
discharge.
    Mr. Allegretti. Ballast water discharge and all vessel 
discharge; they should all be regulated together within the 
same subtitle. And Mr. Larsen, there is precedent for doing 
that. In the Clean Air Act, there are separate subtitles, one 
of which deals with point sources and one of which deals with 
mobile sources and so you would be kind of modeling it along 
the Clean Air Act model.
    Mr. Larsen. Do you have--does the industry have a view on 
the Coast Guard's phase one standard?
    Mr. Allegretti. Yes. We think that the Coast Guard's phase 
one standard is the appropriate standard because it is the 
internationally recognized standard, and it is the only 
standard on which there is general consensus is technologically 
achievable.
    Mr. Larsen. Are any of your members participating in any of 
the technology evaluations that Admiral Salerno discussed?
    Mr. Allegretti. I don't believe so, but I would like to 
clarify for the record. There may in fact be some who are 
participating. And the challenges of ballast water management 
on towing vessels are unique to what we understand. Most of the 
knowledge and the science today focuses on large ocean-going 
vessels and international commerce. The amount of ballast water 
they carry and their flow rates, are very different, of course, 
than the smaller towing vessels that operate domestically.
    So just a technical challenge that we face as we move 
forward is making sure that we size the ballast water 
requirements to the vessels so that it is practicable and 
achievable.
    Mr. Larsen. And you don't want the technology applied to 
the vessel to be larger than the vessel itself?
    Mr. Allegretti. That would be a good standard to start 
with, yes, sir.
    Mr. Larsen. Just trying to help.
    Mr. Jewell, are any of the vessels that your members work 
on participating in technology evaluations.
    Mr. Jewell. Not that I know of, no.
    Mr. Larsen. Can you get back to us?
    Mr. Jewell. Yes, we will. My staff will.
    Mr. Larsen. And then, from your point of view as well, is 
the issue the two Federal agencies or the 26 States?
    Mr. Jewell. As a deep sea person, it is mainly the Federal, 
but I truly, and being on the Great Lakes also, so it is kind 
of a twofold so it is kind of both.
    Mr. Larsen. OK, that is great.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Gibbs.
    Mr. Gibbs. I thank you, Mr. Chairman.
    Mr. Jewell, I just want to highlight in your written 
testimony, you state, on January 1, 2012, New York State 
regulations add to the EPA's vessel general permit will require 
that ballast water be as pure as distilled water or similar to 
bottled drinking water before it can be discharged into the 
waters of the State. These well-intentioned regulations would 
have the effect of closing the St. Lawrence Seaway thus 
disrupting shipping throughout the region and eliminating the 
waterway's workforce.
    I want to highlight that because if you close the Saint 
Lawrence Seaway because New York State is allowed to do this 
and January 1, if that was implemented, that would shut down 
the whole Great Lakes--it is unbelievable to me. I don't know 
if you want to expound on that or not, but I wanted to make 
sure that was highlighted because I don't know if you said that 
in your oral testimony. I don't believe I heard it. I just 
wanted to highlight that.
    Mr. Allegretti, you just said you are in support of phase 
one uniform standard. What would be the--what is the cost per 
vessel approximately in order to implement the technology to 
comply to phase one?
    Mr. Allegretti. It is largely an unknown. I can tell you 
what I think we understand the range of costs to be.
    There was a survey done in California a couple of years ago 
that looked at 14 different ballast water technologies and 
tried to price them out. And the average number as I recall--
the average cost of the ballast water system was about $900,000 
according to the survey. If you think about that relative to 
the cost of equipment in the towing industry, a barge can cost 
$400,000 to $500,000 so you would be putting a system on a 
barge that costs twice the actual construction cost of the 
barge. An inland towing vessel can cost somewhere in the $3 to 
$4 million range. So you are putting equipment on the vessel 
that is 20 to 25 percent of the cost of the original 
construction price.
    So you are talking about very significant, potentially 
significant economic burdens relative to the cost of the 
equipment that was constructed and bought for the purposes of 
the transportation.
    Mr. Gibbs. To go beyond phase one, you know I have heard 
testimony that technology doesn't exist anyway to determine 
that the thousands or hundred times the IMO standard, the phase 
one standard, I am not going to speculate or assume that to put 
in a ballast water system to go beyond phase one to phase two 
would be totally out of reach for most people and would shut 
down the industry.
    Mr. Allegretti. Sir, I guess what I would ask the 
subcommittee to be particularly attentive to is not using the 
industry as a test bed for driving the improvement in 
technology or further stringency of the standards. Those are 
very good--I think those are very good goals that we should try 
to achieve. But there is a different way to come at those as 
opposed to requiring new technologies on vessels to figure out 
how well it works. We should first make sure that it is 
technologically feasible, practicable and available 
commercially before we put a regulation in place that requires 
people to purchase it.
    Mr. Gibbs. My last question, Mr. Jewell, on training and in 
preparing engineers to operate these ballast water management 
systems and what is all involved in that and manpower 
requirements.
    Mr. Jewell. As far as the training, I can honestly say as 
far as the American merchant marine, we are probably one of the 
best trained in the world for all of us. I would think that we 
would adapt very quickly to the training aspects. Each of the 
unions have their own schools, and what I would expect is that 
we would go to the manufacturer and get one of their engineers 
to come in there and set up a class, and we would adapt 
ourselves very quickly to the new ballast system if that were 
to be put in place.
    I truly look at it as it is not the American domestic fleet 
that should be the problem because they are actually taking in 
water from the coasts of the United States. And that way, I 
truly look at it as a foreign-flag coming into this country 
that brings in more of the invasive species and everything else 
like that.
    But on the domestic trade, you are taking water, if you are 
in the Great Lakes, you are taking in the Great Lakes. The Gulf 
Stream that comes up from Florida all the way to New York, that 
is where you are going to be getting your ballast water, and 
then to treat it, it seems to be not productive and at a cost 
to the companies that right now, the way shipping is, cannot 
really afford $1 million or $2 million of new equipment to be 
put on ships.
    Mr. LoBiondo. Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Jewell and Mr. Allegretti, you have heard our chairman 
reference, as well as Chairman Mica, of an interest in putting 
some things in place to increase short seas shipping. Do you 
feel that our current systems are in place to support that 
potential growth?
    Mr. Jewell. Yes, I do. I think we are moving more and more 
and to get the trucks and everything else off the highways, I 
think it is very important to establish the short sea shipping, 
so to speak, and to build a short sea shipping up to get the 
shipyards more productive, to build ships in the United States, 
to provide the jobs. And as the ships are built, then the 
mariners get to man the ships, and they are all U.S.-crude, 
U.S.-flag vessels. And I think it is very productive.
    Ms. Richardson. Is there anything that you think you need 
prior to this being implemented? Is there any support or any 
regulations or anything that you think you need from this 
Congress in order to implement that effectively?
    Mr. Jewell. Can I get back to you with that?
    Ms. Richardson. Sure. Absolutely.
    Mr. Jewell, actually I have a couple more questions for 
you.
    In your testimony, you described some of the imbalances you 
see currently implemented on the U.S.- versus foreign-flag 
vessels. Could you describe some of those imbalances that you 
are currently experiencing?
    Mr. Jewell. The cost of the foreign-flag crew is a big 
thing, and foreign flags, they actually do not have the same 
regulatory burdens that the Americans do. The American Merchant 
Marines are probably the most regulated individuals in the 
country, with driving records--we have to renew our license 
every year--every 5 years, excuse me. Every 5 years, we renew 
our license. We have to go through a driving check. We have to 
go through two or three different other steps to be able to sit 
there and get our license and to be able to sail. One DUI could 
actually hurt your career as a U.S. Merchant Marine.
    Ms. Richardson. Mr. Allegretti, what impact do you think 
would we see if we were to impose a national standard on the 
shipping industry, meaning from these 26 States that multiple 
people have asked these questions about today? Have you heard 
discussions as far as are they supportive, or are they 
completely opposed?
    Mr. Allegretti. You would have national jubilation.
    Ms. Richardson. From States.
    Mr. Allegretti. Did you ask about the States?
    Ms. Richardson. Yes.
    Mr. Allegretti. I can't speak for the States.
    I will say that one of the major impediments to the 
movement of this legislation has been the kind of theoretical 
and philosophical arguments about the authority of States and 
the unwillingness to preempt their actions in this area. And it 
is obviously a significant issue that the subcommittees have to 
deal with. I understand it is a sensitive issue.
    But in the case of the movement of interstate commerce, it 
is very clear, it is very clear in the Constitution, it is very 
clear in two centuries of case law, it is very clear in recent 
enactments of Congress that there are a small handful of areas 
where the national interest trumps the authority of States to 
act independently, and this is one of them.
    Ms. Richardson. Are you aware of any specific opposition 
that has been presented by the State?
    Mr. Allegretti. Not personally, no.
    Ms. Richardson. If you have any information, would you mind 
supplying it to the committee?
    Mr. Allegretti. Be happy to, ma'am.
    Ms. Richardson. Thank you. And then my last question.
    Mr. Jewell, you state in your testimony that domestically 
U.S. vessels operate more efficiently, safely, and more 
environmentally consciously than any other means of 
transportation. And having worked on transportation now for my 
entire legislative career, I thought that was an interesting 
comment. Could you explain further why you feel that is the 
case?
    Mr. Jewell. Well, we put Americans to work and Americans 
are the greatest people in the world and that efficiently we do 
things--the American Merchant Marine adapts so quickly and so 
well. The ships are run very efficiently in how we do it. Even 
though we are regulated, we go by all of the regulations. 
Safety, I think the safety record of the American Merchant 
Marine--I don't remember the last time a merchant ship crashed 
into the Golden Gate or the San Francisco Bay Bridge. So I 
think our safety record speaks for itself.
    Ms. Richardson. Thank you.
    I yield back the balance of my time.
    Mr. LoBiondo. Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you for our witnesses for being here today.
    The steel-making facilities across the country cannot 
operate without vessel delivery from ore from the range in 
Minnesota. Vessels typically deliver 8 to 9 million tons of ore 
from my district to Gary, Indiana, alone each year.
    In 2009, the U.S. Army Corps of Engineers reports estimates 
that the Great Lakes shipping annually saves its customers $3.6 
billion in transportation costs when compared to the next least 
costly mode of transportation.
    All vessels seeking to travel within the Great Lakes, 
between Lake Erie and Lake Ontario, or between the Great Lakes 
and the Saint Lawrence Seaway must transit New York waters. 
Imposing requirements that simply cannot be met technology-
wise, such as the New York ballast water treatment system 
requirements 100 times or 1,000 times the IMO standard will of 
course have huge negative effect on North American steel 
industry.
    If it does not disrupt it entirely, even trying to comply 
will drive up transportation costs significantly. It would also 
set dangerous precedent that could eventually affect other U.S. 
waterways and threaten international commerce in profound ways.
    So, essentially, under U.S. law and the Federal Clean Water 
Act, a single State can effectively blockade traffic from 
leaving or entering the Great Lakes, New York Harbor or any 
other harbor they deem fit. For example, if Michigan adopted 
such a standard, they could affect the waterways down line and 
affect millions of jobs all over the U.S. and Canada, on the 
Great Lakes, Saint Lawrence Seaway, Hudson River, and the New 
Jersey and New York Harbor, including 260,000 jobs in New York 
Harbor alone.
    In understanding all of this, it just seems to me that this 
is not only going to affect jobs within the maritime community 
on the docks and at sea, but it is also going to affect the 
average American downstream.
    Mr. Allegretti, could you address that and tell us how this 
is going to affect just the average American if this was 
adopted?
    Mr. Allegretti. Well, you said it very well, sir, and there 
is not a lot that I can add to what you said. And it really 
underscores the urgency of moving forward remedial legislation.
    I guess I would say with respect to the impact on the 
American consumer, there are really two, I think. One is that 
to the extent that you raise transportation costs, those costs 
get passed down the line to the end of the retail chain, and 
they ultimately end up in the shopping basket of Americans in 
one way, shape, or form.
    The other thing may be a little more philosophical than 
sort of the economic impact, is really the proper expectation 
of American citizens that its Government functions well and 
functions smartly. And this system of the taxpayer paying for 
two Federal programs and then paying State tax bills to 
underwrite 26 additional contradictory programs really is a 
poster child for wasteful Government spending.
    Mr. Cravaack. Thank you very much, sir. I appreciate those 
comments, and I would have to agree; we do have the best 
maritime sailors in the world. So thank you very much for those 
comments.
    Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. I want to thank you, Mr. Allegretti, Mr. 
Jewell, very much. We will try to come up with a commonsense 
real-world solution that accomplishes what the goals are but 
allows for us to continue to move forward.
    And the hearing is adjourned.
    [Whereupon, at 12:00 p.m., the subcommittees were 
adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
